                     OFFICE OF
             THE INSPECTOR GENERAL
                   U.S. NUCLEAR
             REGULATORY COMMISSION


                  Audit of NRC’s Decommissioning Program

                      OIG-05-A-17 September 21, 2005




                      AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                          September 21, 2005




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum/RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S DECOMMISSIONING PROGRAM
                            (OIG-05-A-17)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of
NRC’s Decommissioning Program. This audit found that while NRC’s
decommissioning program has processes in place to monitor, evaluate and
report on performance,--

              A. OIG was able to verify some performance results, but was
                 unable to verify others; and
              B. the decommissioning program implemented most Program
                 Evaluation of Changes to the Decommissioning Program
                 recommendations, but has made minimal progress to implement
                 a few others.

During an exit conference held August 3, 2005, the agency generally agreed with
the recommendations in this audit report and on September 13, 2005 provided
formal comments concerning the draft audit report. We modified the report as we
determined appropriate in response to these comments.

If you have any questions, please call Anthony Lipuma at 415-5910 or me at
415-5915.

Attachment: As stated
Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
William N. Outlaw, Acting Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                                                                     Audit of NRC’s Decommissioning Program



EXECUTIVE SUMMARY

BACKGROUND

                   NRC continues to regulate commercial nuclear reactors, fuel cycle
                   facilities, and NRC material licensees after they are permanently
                   shut down and begin decommissioning.1 During reactor
                   decommissioning, NRC conducts inspections, processes license
                   amendments (including approval of the License Termination Plan),
                   and monitors the status of activities. NRC also regulates the
                   decommissioning of materials facilities by reviewing
                   decommissioning plans, conducting inspections, and monitoring the
                   status of activities to assure that radioactive contamination is
                   reduced or stabilized. This monitoring system assures that safety
                   requirements are being met throughout the decommissioning
                   process. The Office of Nuclear Materials Safety and Safeguards
                   (NMSS), oversees power reactor decommissioning2 once certain
                   licensing actions are completed and materials license
                   decommissioning regulatory activities.

                   To ensure that Federal agencies achieve program results,
                   Congress passed the Government Performance and Results Act of
                   1993 (GPRA). The Office of Management and Budget (OMB)
                   developed the Program Assessment Rating Tool (PART) to—

                       1. assess and improve program performance so that the
                          Federal government can achieve better results, and

                       2. provide a sound basis for budget and management
                          decisions.

                   PART builds on GPRA by encouraging agencies to integrate
                   operational decisions with strategic and performance planning. It is
                   a diagnostic tool intended to systematically and consistently assess
                   the performance of program activities across the Federal
                   government.




1
  NRC defines decommissioning as removing a facility or site safely from service and reducing residual
radioactivity to a level that permits (1) release of the property for unrestricted use and termination of the
license; or (2) release of the property under restricted conditions and termination of the license.
2
  NMSS currently oversees 13 power reactors undergoing decommissioning. Project management for
oversight of the remaining power and demonstration reactors undergoing decommissioning has been
retained by the Office of Nuclear Reactor Regulation.


                                                        i
                                              Audit of NRC’s Decommissioning Program



PURPOSE

            NRC’s FY 2006 performance plan identified Decommissioning and
            Low-Level Waste as a program scheduled to be reviewed using
            PART for Budget Year 2008. Because this program will be subject
            to a PART review in FY 2006, agency managers requested OIG to
            review the decommissioning program.

            The objective of the audit was to determine whether NRC's
            decommissioning program achieves desired performance results as
            stated in the Agency's Strategic Plan and reported in the
            Performance and Accountability Report. That is –

            1.     Verify whether the Program achieves its performance
                   results; and

            2.     Determine whether NRC’s decommissioning program staff
                   implemented recommendations made in the Program
                   Evaluation of Changes to the Decommissioning Program to
                   improve program performance.

RESULTS IN BRIEF

            The decommissioning program evaluates its effectiveness by using
            outcome, performance and output measures contained in the
            Agency’s strategic and performance plans. Additionally, an FY
            2003 self-evaluation resulted in 21 recommendations intended to
            improve the Program’s effectiveness and efficiency. While NRC’s
            decommissioning program has processes in place to monitor,
            evaluate and report on performance,--

            A. some performance results were verified, but OIG was unable to
               verify others; and

            B. the decommissioning program implemented most Program
               Evaluation recommendations, but has made minimal progress
               to implement a few others.

      A. Some Performance Results Verified, Unable to Verify Others

            As required by GPRA, some decommissioning program
            performance results were verifiable. However, OIG was unable to
            verify all reported results. This problem occurred because
            responsible staff members did not maintain adequate supporting
            documentation. Without adequate supporting documentation,




                                     ii
                                               Audit of NRC’s Decommissioning Program



           reported performance results cannot be verified. Specifically,
           NRC—

           ¾ cannot confirm that program goals are met,
           ¾ cannot be sure conclusions about the effectiveness of the
             program are reliable, and,
           ¾ independent evaluators would not have data needed to verify
             and validate the program’s performance results.

     B.   Most Program Evaluation Recommendations Implemented,
          Minimal Progress on a Few

           While most recommendations made in the Program Evaluation of
           Changes to the Decommissioning Program to improve performance
           and to prepare to score well on an upcoming PART review were
           implemented, competing priorities have interfered with progress on
           a few recommendations. Full implementation of all
           recommendations is needed to achieve all intended program
           improvements and to avoid potential negative affects on the
           Program’s PART score. According to NRC management, the
           Program expects to meet the current September 2005 milestones
           for these recommendations.

RECOMMENDATIONS

           A Consolidated List of Recommendations appears on page 20 of
           this report.

OIG ANALYSIS OF AGENCY COMMENTS

           At an exit conference on August 3, 2005, NRC’s Executive Director
           for Operations agreed with OIG’s recommendations and
           subsequently provided informal comments concerning the draft
           report. On September 13, 2005, the Executive Director transmitted
           a memorandum with formal comments on this report (see Appendix
           F). Appendix G contains OIG’s specific responses to the
           comments.




                                     iii
                         Audit of NRC’s Decommissioning Program




[Page intentionally left blank.]




               iv
                                       Audit of NRC’s Decommissioning Program



ABBREVIATIONS AND ACRONYMS

       CFR     Code of Federal Regulations
       DOE     U.S. Department of Energy
       EPA     U.S. Environmental Protection Agency
       FTE     full-time equivalency
       FY      fiscal year
       GPRA    Government Performance and Results Act
       IDIP    Integrated Decommissioning Improvement Plan
       LTR     License Termination Rule
       NMED    Nuclear Materials Events Database
       NMSS    Office of Nuclear Material Safety and Safeguards
       NRC     U.S. Nuclear Regulatory Commission
       NRR     Office of Nuclear Reactor Regulation
       OCFO    Office of the Chief Financial Officer
       OIG     Office of the Inspector General
       OMB     U.S. Office of Management and Budget
       PART    Program Assessment Rating Tool
       PBPM    Planning, Budgeting, and Performance Management
       SDMP    Site Decommissioning Management Plan




                             v
                         Audit of NRC’s Decommissioning Program




[Page intentionally left blank.]




               vi
                                                                Audit of NRC’s Decommissioning Program



TABLE OF CONTENTS

    EXECUTIVE SUMMARY.........................................................................i

    ABBREVIATIONS AND ACRONYMS ....................................................v

    I.     BACKGROUND .............................................................................1

    II.    PURPOSE......................................................................................5

    III.   FINDINGS ......................................................................................6

             A.     SOME PERFORMANCE RESULTS VERIFIED, UNABLE
                    TO VERIFY OTHERS ................................................................6

             B.     MOST PROGRAM EVALUATION RECOMMENDATIONS
                    IMPLEMENTED, MINIMAL PROGRESS ON A FEW .......................12

    IV.    CONSOLIDATED LIST OF RECOMMENDATIONS ....................19

    V.     AGENCY COMMENTS ................................................................21

    APPENDICES

    A.     SCOPE AND METHODOLOGY...................................................23

    B.     PART STRUCTURE ....................................................................25

    C.     SAMPLE VERIFICATION AND VALIDATION FORM ..................27

    D.     LABELS ASSIGNED TO INDICATE STATUS OF EACH
           PROGRAM EVALUATION RECOMMENDATION .......................29

    E.     SUMMARY OF STATUS OF PROGRAM EVALUATION
           RECOMMENDATIONS ................................................................31

    F.     AGENCY FORMAL COMMENTS ......................................................... 33

    G.     DETAILED OIG ANALYSIS OF COMMENTS....................................... 39




                                                  vii
                     Audit of NRC’s Decommissioning Program




[Page intentionally left blank.]




          viii
                                                                    Audit of NRC’s Decommissioning Program



I. BACKGROUND

                  The Nuclear Regulatory Commission (NRC) regulates the civilian
                  commercial, industrial, academic, and medical uses of nuclear
                  materials in order to protect the public health and safety and the
                  environment and promote the common defense and security. The
                  Agency’s responsibility includes regulation of commercial nuclear
                  power plants; research, test, and training reactors; nuclear fuel
                  cycle facilities; medical, academic, and industrial uses of
                  radioactive materials; and the transport, storage, and disposal of
                  radioactive materials and wastes. NRC continues to regulate
                  commercial nuclear reactors, fuel cycle facilities, and NRC material
                  licensees after they are permanently shut down and begin
                  decommissioning.3 Decommissioning regulations are contained in
                  Parts of Chapter 1 of Title 10, “Energy,” of the Code of Federal
                  Regulations (CFR).

                                                               In FY 2006, NRC plans to conduct
                                                               decommissioning licensing and
                                                               inspection activities at 204 power
                                                               reactors and at approximately 40
                                                               complex materials5 and fuel
                                                               facilities sites. The Office of
                                                               Nuclear Reactor Regulation (NRR)
                                                               oversees NRC-licensed research
                                                               and test reactors in
                                                               decommissioning and the first
                                                               stages of power reactor
                                                               decommissioning. The Office of
                                                               Nuclear Materials Safety and
                                                               Safeguards (NMSS), oversees
                                                               power reactor decommissioning6
                                                               once certain licensing actions are
                                                               completed and materials license
                                                               decommissioning regulatory
                                                               activities.




3
  NRC defines decommissioning as removing a facility or site safely from service and reducing residual
radioactivity to a level that permits (1) release of the property for unrestricted use and termination of the
license; or (2) release of the property under restricted conditions and termination of the license.
4
  NUREG 1100 Vol. 21, Performance Budget: Fiscal Year 2006
5
  Complex material sites mean all sites that are categorized as Group 3 or higher in Volume 1 of NUREG-
1757, “Consolidated NMSS Decommissioning Guidance.”
6
  NMSS currently oversees 13 power reactors undergoing decommissioning. Project management for
oversight of the remaining power and demonstration reactors undergoing decommissioning has been
retained by the Office of Nuclear Reactor Regulation.
                                                       1
                                                               Audit of NRC’s Decommissioning Program



                 Reactor Decommissioning

                 During a reactor’s operating life, plant components can become
                 radioactive. Therefore, special care is needed in the
                 decontamination and dismantlement of the plant. During reactor
                 decommissioning, NRC conducts inspections, processes license
                 amendments (including approval of the License Termination Plan),
                 and monitors the status of activities. This monitoring is intended to
                 ensure that safety requirements are met throughout the process.

                 Materials Decommissioning


                                           Each year approximately 300 materials
                                           licenses are terminated. Most are routine
                                           actions and the sites require little, if any,
                                           remediation to meet the NRC's unrestricted
                                           release criteria. The materials
                                           decommissioning program is, therefore,
                                           focused primarily on the termination of
                                           licenses that are not routine because these
                                           sites may require more complex
                                           decommissioning activities. NRC regulates
                                           the decommissioning of materials facilities by
                                           reviewing decommissioning plans, conducting
                                           inspections, and monitoring the status of
                                           activities to assure that radioactive
                                           contamination is reduced or stabilized. This
                                           monitoring system assures that safety
                                           requirements are being met throughout the
                                           process.


                 Budget and Resources

                 The total FY 2004 enacted budget authority for Decommissioning
                 and Low-Level Waste was $19,448,000 and 86 full-time equivalents
                 (FTE). The FY 2005 enacted full cost for the Decommissioning and
                 Low-Level Waste Program is $24,081,000 and 112 FTE.7




7
  FYs 2004 and 2005 budget authority and FTEs for Decommissioning and Low-Level Waste include
resources used by organizations outside of NMSS (e.g., NRR, and the Office of Nuclear Regulatory
Research).
                                                   2
                                                                  Audit of NRC’s Decommissioning Program



                  Agreement States

                  Section 274 of the Atomic Energy Act of 1954, as amended,
                  provides the statutory bases under which NRC relinquishes to the
                  States portions of its regulatory authority to license and regulate
                  byproduct materials, source materials, and certain quantities of
                  special nuclear materials. The mechanism for the transfer of
                  NRC’s authority to a State is an agreement signed by the Governor
                  of the State and the Chairman of the Commission.

                  Agreement States have regulatory authority to license8 and inspect
                  byproduct, source or limited quantities of special nuclear material
                  maintained within their borders at non-federal entities at non-federal
                  sites or at federal sites not subject to exclusive federal jurisdiction.
                  NRC evaluates Agreement State programs to ensure they are
                  adequate to protect public health and safety and compatible with
                  NRC’s regulatory program. The map below shows which states are
                  Agreement States.




                                        Illustration 1: Agreement States


                         Source: NRC Website, URL: http://www.hsrd.ornl.gov/nrc/home.html


                  Government Performance and Results Act

                  Congress passed the Government Performance and Results Act of
                  1993 (GPRA) to ensure that Federal agencies achieve program
                  results. GPRA requires Federal agencies to develop 5-year
                  strategic plans that contain a comprehensive mission statement
                  and long-term, results-oriented goals covering each of its major
                  functions. Additionally, GPRA requires Federal agencies to
                  prepare an annual performance plan and an annual performance
8
 Agreement State licensing activities include license termination once a licensee decommissions its site to
meet the State’s regulatory criteria for release.
                                                     3
                                   Audit of NRC’s Decommissioning Program



report. The performance plan establishes performance goals for
the fiscal year; briefly describes the means and strategies needed
to meet the goals; and describes the means used to verify and
validate performance. The performance report reviews the
Agency's success in achieving its performance goals for each fiscal
year.

OMB PART Guidance

The Office of Management and Budget (OMB) developed the
Program Assessment Rating Tool (PART) to—

   1. assess and improve program performance so that the
      Federal government can achieve better results, and

   2. provide a sound basis for budget and management
      decisions.

It builds on GPRA by encouraging agencies to integrate operational
decisions with strategic and performance planning.

PART is a diagnostic tool intended to systematically and
consistently assess the performance of program activities across
the Federal government. It is comprised of a series of questions,
divided into four sections. Each section and its associated
objective are summarized in Appendix B. PART section 2,
Strategic Planning, includes an element on whether independent
evaluations of sufficient scope and quality are conducted on a
regular basis or as needed to support program improvements and
evaluate effectiveness. Agencies work together with OMB to
decide which programs will be reviewed using the PART for the
coming year.

Decommissioning Program’s Process for Establishing
Performance Expectations and Monitoring Performance

The NMSS decommissioning program maintains a process for
establishing performance expectations and monitoring performance
that is aligned with GPRA requirements. Through this process, the
program has established goals, quantifiable performance
measures, and operation plans delineating the activities and
resources required to achieve those goals. Processes are in place
to periodically update the status of the operating plan and to
determine whether the program is on track to achieve performance
results.




                          4
                                            Audit of NRC’s Decommissioning Program



         In the NRC Strategic Plan FY 2000 – FY 2005, the Agency
         identified the decommissioning program as an area to be assessed
         in FY 2003. The results of that assessment are contained in the
         report, Program Evaluation of Changes to the Decommissioning
         Program (Program Evaluation), published in September of 2003.


II. PURPOSE

         NRC’s FY 2006 performance plan identified Decommissioning and
         Low-Level Waste as a program scheduled to be reviewed using
         PART for Budget Year 2008. Because this program will be subject
         to a PART review in FY 2006, agency managers requested OIG to
         review the decommissioning program.

         The objective of the audit was to determine whether NRC's
         decommissioning program achieves desired performance results as
         stated in the Agency's Strategic Plan and reported in the
         Performance and Accountability Report. That is –

         1.    Verify whether the Program achieves its performance
               results; and

         2.    Determine whether NRC’s decommissioning program staff
               implemented recommendations made in the Program
               Evaluation of Changes to the Decommissioning Program to
               improve program performance.

         See Appendix A for more details on the scope limitations and
         methodology of this audit.




                                   5
                                                Audit of NRC’s Decommissioning Program



III. FINDINGS

           The decommissioning program evaluates its effectiveness by using
           outcome, performance and output measures contained in the
           Agency’s strategic and performance plans. Additionally, an FY
           2003 self-evaluation resulted in 21 recommendations intended to
           improve the Program’s effectiveness and efficiency. While NRC’s
           decommissioning program has processes in place to monitor,
           evaluate and report on performance,--

           A. some performance results were verified, but OIG was unable to
              verify others; and

           B. the decommissioning program implemented most Program
              Evaluation recommendations, but has made minimal progress
              to implement a few others.

     A. Some Performance Results Verified, Unable to Verify Others

           As required by GPRA, some decommissioning program
           performance results were verifiable. However, OIG was unable to
           verify all reported results. This problem occurred because
           responsible staff members did not maintain adequate supporting
           documentation. Without adequate supporting documentation,
           reported performance results cannot be verified. Specifically,
           NRC—

           ¾ cannot confirm that program goals are met,
           ¾ cannot be sure conclusions about the effectiveness of the
             program are reliable, and,
           ¾ independent evaluators would not have data needed to verify
             and validate the program’s performance results.

           GPRA Requires Performance Data to be Verifiable and Valid

           Performance data must be reliable, verifiable and valid to be
           valuable as a basis for budget and management decisions.
           Specifically, GPRA requires that performance results data be
           verifiable and valid. Also, NRC’s Performance and Accountability
           Report, Fiscal Year 2001 states that, “Assessing the reliability and
           completeness of performance data is critical to managing for
           results.” NRC managers use a form to attest to the reliability of the
           performance results data. The staff refers to these forms as
           “verification and validation” forms.




                                      6
                                                                Audit of NRC’s Decommissioning Program



                 Performance and Output Goals and Targets

                 Each year NRC prepares a performance plan to establish
                 performance goals and measures for the coming year. The annual
                 Performance and Accountability Report discusses program
                 performance and the Agency’s success in achieving its strategic
                 goals, performance goals and performance targets. NRC’s
                 Performance and Accountability Reports for FYs 2001, 2002, and
                 2004 reported that all performance measures pertaining to NRC’s
                 decommissioning program were met.

                 Additionally, in 2003, NMSS conducted an evaluation to assess the
                 effectiveness of the decommissioning program and the individual
                 programmatic changes and improvements, as well as to
                 recommend future improvements for the program. The self-
                 assessment team concluded that the decommissioning program
                 has been effective at meeting NRC's strategic and performance
                 targets.

                 Some Performance Results Not Verifiable

                 OIG was able to verify performance results for four measures, but
                 was unable to verify results for six others. OIG verified results for
                 four of the decommissioning program’s FYs 2001 and 2002
                 performance measures as reported in the FY 2003 Program
                 Evaluation of Changes to the Decommissioning Program and
                 results for four of its FY 2004 measures reported in the
                 Performance and Accountability Report, FY 2004.9 Specifically, by
                 querying the Nuclear Material Events Database10 (NMED) and
                 reviewing supporting documents, the OIG verified the following
                 decommissioning program performance results for FYs 2001, 2002,
                 and 2004:

                 ¾ No deaths resulting from acute radiation exposure from
                   radioactive waste;
                 ¾ No events resulting in significant radiation exposure from
                   radioactive waste;
                 ¾ No events resulting in radiation overexposures from radioactive
                   waste that exceed regulatory limits; and


9
  In the FY 2003 Program Evaluation of Changes to the Decommissioning Program, the program staff
reported that it met all FYs 2001 and 2002 performance measures. OIG attempted to verify the reported
results for FYs 2001 and 2002 and also attempted to verify FY 2004 performance results to determine the
current status of performance.
10
   Much of the data reported in the Performance and Accountability Report is derived from NRC’s abnormal
occurrence data which is based, in part, on events reported by licensees to the NMED. Performance data
for eight performance measures pertaining to the decommissioning program are derived from the NMED
system.


                                                    7
                                                                 Audit of NRC’s Decommissioning Program



                ¾ Complete at least 2 key process improvements per year in
                  selected program and support areas that increase efficiency,
                  effectiveness and realism.

                Using the NMED system, OIG generated reports to verify that no
                events occurred in FYs 2001, 2002 and 2004, that met the
                reporting criteria for three performance measures (Numbers 1, 2
                and 5 highlighted in green in Table 1). Additionally, OIG used
                other Agency documents to verify that the Program met the
                performance measure to complete at least 2 key process
                improvements.

                However, OIG was not able to verify performance results for the
                remaining five performance measures derived from NMED
                (Numbers 3, 4, 6, 7 and 8 highlighted in yellow in Table 1) and one
                other performance measure to complete all public outreaches
                (Number 9).

                                               TABLE 1

Summary of FYs 2001, 2002, and 2004 Performance Results Verified by OIG


  Strategic Goal: Prevent significant adverse impacts from radioactive waste to
  the current and future health and safety of the public and the environment and
  promote the common defense and security.
  1. No deaths resulting from acute radiation exposure from radioactive waste.       Verified
  2. No events resulting in significant radiation exposure from radioactive waste.   Verified
  3 No release of radioactive waste causing an adverse impact on the                 Not
  environment.                                                                       Verifiable
  4 No losses, thefts, diversion, or radiological sabotages of special nuclear       Not
  material or radioactive waste.                                                     Verifiable
  Performance Goal: Maintain safety, protection of the environment, and the
  common defense and security.
  5. No events resulting in radiation overexposures from radioactive waste that      Verified
  exceed applicable regulatory limits.
  6. No breakdowns of physical protection resulting in a vulnerability to            Not
  radiological sabotage, theft, diversion, or loss of special nuclear materials or   Verifiable
  radioactive waste.
  7. No radiological releases to the environment from operational activities that    Not
  exceed the regulatory limits.                                                      Verifiable
  8. No instances where radioactive waste and materials under the NRC’s              Not
  regulatory jurisdiction cannot be handled, transported, stored, or disposed of     Verifiable
  safely now or in the future.
  Performance Goal: Increase public confidence.
  9. Complete all of the public outreaches                                           Not
                                                                                     Verifiable
  Performance Goal: Make NRC activities and decisions more effective,
  efficient, and realistic.
  10. Complete at least 2 key process improvements per year in selected              Verified
  program and support areas that increase effectiveness, efficiency, and
  realism.




                                                    8
                                                                Audit of NRC’s Decommissioning Program



                 Staff Did Not Maintain Adequate Supporting Documentation for
                 Performance Data

                 Although an FY 2003 NMSS assessment11 of performance
                 measures previously identified a problem with retaining some
                 supporting documentation for FY 2002 and recommended retaining
                 hard copies of NMED reports, inadequate documentation was
                 available for OIG to verify all FYs 2001, 2002 and 2004 reported
                 results pertaining to the decommissioning program. NMSS
                 management and the staff member responsible for collecting and
                 compiling performance results data expect individual programs 1)
                 to maintain supporting documentation and 2) to complete
                 verification and validation forms that attest to the reliability of the
                 data (for an example of a verification and validation form, see
                 Appendix C). However, some staff members involved in submitting
                 NMSS performance data said they were not aware of any
                 requirements to maintain supporting documentation for
                 performance results.

                          Supporting Documentation Discarded

                 NMSS’ internal assessment included the following recommendation
                 that was made to strengthen the office’s performance measure
                 process—

                 Recommendation 1 - “Staff members should retain hard copies of
                 the NMED reports used to identify the numbers of reportable
                 performance measure events provided to OCFO [Office of the Chief
                 Financial Officer] and keep the reports on file.”

                 The report further stated, “While NMSS appears to be in
                 compliance with the OMB standards [OMB Circular A-11],
                 recommendations 1 and 2 are relevant to the issue of data
                 completeness and reliability. Those recommendations highlight the
                 importance of ensuring clear, consistent, and up-to-date
                 procedures and records for data collection and reporting as a
                 means for maintaining confidence that data is complete and
                 reliable.” However, a Division of Waste Management and
                 Environmental Protection staff member discarded supporting
                 documentation for FY 2004 performance results and did not have
                 FY 2001 supporting documentation because he was not
                 responsible for submitting data in FY 2001. Furthermore, because
                 the supporting documentation for FY 2002 was discarded prior to


11
   In the NMSS report, Internal Assessment of Performance Measures, prepared July 17, 2003, staff
identified a problem with retaining performance data supporting documentation for the FY 2002 cycle. The
report notes that while NMSS staff searched NMED and generated reports to identify reportable events, if
any, they did not keep copies of the NMED generated reports (pp. 3 and 4 of 11).
                                                    9
                                                                 Audit of NRC’s Decommissioning Program



                  the NMSS assessment, it was not available for OIG to use to verify
                  performance results.

                           Reliance on Verification and Validation Forms

                  NMSS staff responsible for reporting performance results relies on
                  verification and validation forms as supporting documentation for
                  performance data. The staff that reports the results expects the
                  organizations that prepare and submit the results to maintain the
                  detailed documentation. A staff member said managers annually
                  check a box on the verification and validation forms stating whether
                  or not “Data can be relied on by agency managers and other
                  decision-makers.” He said the box is always checked, indicating no
                  reluctance to rely on the data. However, these verification and
                  validation forms provide neither source documents nor data to
                  support the reported results.

                  Reported Performance Results Cannot be Verified
                  The verification and validation forms prepared and maintained by
                  NMSS staff comply with OMB’s reliability standard.12 However, the
                  mangers’ conclusions that data can be relied on, as indicated on
                  these forms, becomes questionable if adequate support in either
                  electronic or hard copy is not maintained.

                  NRC managers said they use performance measures as a basis for
                  determining whether the decommissioning program is effective.
                  However, without adequate supporting documentation, NRC cannot
                  verify and validate performance data that demonstrates that all
                  performance targets have been met. Therefore, NRC cannot be
                  sure that the program is achieving intended results and that
                  conclusions about the effectiveness of the program are appropriate.

                  Furthermore, one element of the PART requires that programs
                  conduct independent evaluations that conclude that the program
                  demonstrates that it is effective. Independent evaluators rely on
                  supporting documentation as a method to evaluate and confirm the
                  effectiveness of programs. Without supporting documentation,
                  independent evaluators will not have the data needed to verify and
                  validate the Program’s performance results.

                  Summary

                  OIG verified performance results for four performance measures
                  pertaining to the decommissioning program. However, because
                  staff members did not maintain adequate supporting

12
  OMB considers data to be reliable “. . . when there is neither a refusal nor a marked reluctance by agency
managers or decision makers to use the data in carrying out their responsibilities.”
                                                    10
                                   Audit of NRC’s Decommissioning Program



documentation, OIG was not able to verify performance results for
six other measures. Consequently, NRC cannot be sure the
program is achieving intended results and that conclusions drawn
about the effectiveness of the decommissioning program are
reliable. Additionally, independent evaluators would not have data
needed to verify and validate the program’s performance results.
Without independent evaluations that can verify the program’s
effectiveness, the program may not receive a positive score on at
least one element of the PART review.

RECOMMENDATION

OIG recommends that the Executive Director for Operations:

1.    Clarify and disseminate expectations for generating and
      maintaining supporting documentation for performance data
      to staff responsible for preparing and collecting performance
      data.




                         11
                                                                 Audit of NRC’s Decommissioning Program



        B.     Most Program Evaluation Recommendations Implemented,
               Minimal Progress on a Few

                 NMSS implemented most of the recommendations made in the
                 Program Evaluation of Changes to the Decommissioning Program.
                 The staff intended for the recommendations to improve
                 performance and to prepare the program to score well on an
                 upcoming PART review. However, competing priorities have led to
                 minimal work on a few recommendations. Until all
                 recommendations are fully implemented, some intended program
                 improvements may not be achieved and the Program’s PART score
                 could be negatively affected.

                 Program Evaluation of Changes to the Decommissioning
                 Program

                 In FY 2003, decommissioning staff conducted the Program
                 Evaluation of Changes to the Decommissioning Program. The
                 objectives of the evaluation were to:

                 ¾ evaluate the effectiveness of NRC’s Division of Waste
                   Management’s decommissioning program,

                 ¾ evaluate individual program changes/improvements; and

                 ¾ recommend future improvements.

                 The report concluded that the decommissioning program was
                 effective at meeting the Agency’s strategic performance measures
                 and effectively used self-assessments and program changes to
                 improve the regulatory framework, decommissioning process,
                 internal program management processes, and public involvement.

                 The report states, “Although significant improvements have been
                 completed, future improvements would be beneficial.” In particular,
                 recommendations from the License Termination Rule [LTR]
                 Analysis13 and the Program Evaluation would offer potentially
                 significant future improvements for the Program and would improve
                 internal program management. The study made 21
                 recommendations.14 The planned improvements resulting from the
                 LTR analysis and the decommissioning Program Evaluation were
13
   In June 2002, the Commission directed the staff to conduct an analysis of LTR issues. Staff experienced
with the LTR had revealed some important implementation issues impacting the decommissioning of sites.
The results of the LTR analysis and recommended regulatory actions were summarized in SECY-03-0069,
Results of the License Termination Rule Analysis, issued May 2003.
14
   The Program Evaluation contained 8 primary recommendations. Six of the 8 primary recommendations
included sub recommendations for a total of 19 sub recommendations. Two primary recommendations did
not have sub recommendations. Therefore, OIG evaluated the status of the 19 sub recommendations and
the two primary recommendations (see Appendix E).
                                                    12
                                     Audit of NRC’s Decommissioning Program



consolidated into an Integrated Decommissioning Improvement
Plan, FY 2004-2007 (IDIP). The IDIP serves as a “continual
improvement” plan for the decommissioning program and is used to
track improvements needed for the decommissioning program’s
PART in FY 2006.

Implementation of Most Recommendations on Track, Minimal
Progress on a Few

The decommissioning program has either completed or made
progress towards the implementation of 17 of 21 recommendations
contained in the Program Evaluation, but, has made minimal
progress to implement three recommendations (see Chart 1 below).
Work on the remaining recommendation is not scheduled to begin
until FY 2006 and is therefore classified as “not applicable."

                        Chart 1
    Status of Recommendations made in the
     Program Evaluation of Changes to the
            Decommissioning Program
                       N=21
                                  Not Applicable,
                                        1
                                       Acknowledged,
                                            3



     Completed,
    Addressed or
   In Progress, 17




OIG reviewed each of the 21 recommendations to determine their
status, as indicated by the following five OIG labels:

   1.   Completed
   2.   Addressed
   3.   In Progress,
   4.   Acknowledged, and
   5.   Not applicable.

For a full description of the five labels, see Appendix D. For a table
that summarizes the status of the 21 recommendations, see
Appendix E.




                           13
                                   Audit of NRC’s Decommissioning Program



      Recommendations with Minimal Progress

Three recommendations have a significant amount of work
remaining to be considered completed, addressed or in progress.
They are:

1.    Establish a baseline for decommissioning costs for specific
      sites and explore the feasibility of a method to measure
      efficiency and cost effectiveness;

2.    Coordinate and review information from Headquarters and
      Regions for existing decommissioning sites to monitor
      progress, consistency, and efficiency of resolving common
      policy and technical issues; and

3.    Coordinate and review information with currently operating
      licensed sites to identify and resolve conditions or events
      that could complicate future decommissioning.

Staff has been working on a mechanism to establish baseline data
for decommissioning costs needed to implement recommendation 1
above. However, this mechanism is not yet in place. Therefore,
the baseline data for decommissioning costs has not yet been
established. The staff is working to develop a crosswalk between
Technical Assignment Control codes and budget in order to monitor
FTEs expended. Without this mechanism, the staff is not able to
establish the baseline decommissioning costs against which future
costs can be compared to measure efficiencies gained.

Procedures for expanding management reviews that were intended
to address recommendations 2 and 3 above were originally
scheduled to be completed in December 2004. However, these
procedures have not yet been completed and the completion date
was changed to September 2005. Improvement in consistency and
efficiency in resolving common policy issues cannot be realized
until these two recommendations are implemented.

Competing Priorities Hinder Progress on Implementing
Recommendations

Competing priorities have hindered progress on the three
recommendations. Consistent with the Agency’s Planning,
Budgeting, and Performance Management process, managers
periodically review resource assignments and reassign them based
on emergent priorities. In regard to the recommendation to
establish baseline decommissioning costs, one staff member said,



                         14
                                    Audit of NRC’s Decommissioning Program



the major obstacles to evaluating efficiencies is determining how to
evaluate and how much to invest in evaluation since the
decommissioning program is so small. Various staff interviewed
said –

¾ getting quantitative information to measure improvements in
  efficiencies is difficult;
¾ tracking expenditures of FTEs requires additional resources;
¾ assigning dedicated resources for measuring efficiency did not
  occur because it is a collateral duty;
¾ measuring efficiencies gained is both an “endemic problem” and
  a technical problem; and
¾ putting in place the technical capability to measure certain
  efficiencies is hindered by requests to achieve new efficiencies.

Because dedicated resources were not assigned and
methodologies were not established to implement recommendation
1, (baseline decommissioning cost data), the staff have measured
gains in efficiency for some program areas qualitatively rather than
quantitatively.

At the time this report was prepared, an NRC manager said he
hired a staff member to, among other things, work on implementing
the recommendation to establish baseline decommissioning cost
data. Additionally, the staff is continuing to explore approaches to
measuring the efficiency of the decommissioning program.
According to NRC management, the Program expects to meet the
current September 2005 milestones for these three
recommendations.

Some Program Improvements May Not be Achieved

Without significant progress on these three recommendations, the
decommissioning program may not achieve some of the program
improvements. Recommendations made in the Program
Evaluation were intended to help achieve the following two near-
term goals—

¾ Continue to improve the efficiency and timeliness of
  decommissioning activities at all sites without impacting safety
  or public confidence, and
¾ Minimize or mitigate future decommissioning problems.

Progress towards implementing the Program Evaluation
recommendations, as summarized in Appendix E, represents a




                          15
                                    Audit of NRC’s Decommissioning Program



concerted effort and commitment to improving the effectiveness of
the Program. However, minimal progress on three
recommendations could result in missed opportunities to improve
the efficiency or effectiveness of the Program.

Additionally, in the Program Evaluation, staff stated that
implementation of these recommendations is expected to improve
the Agency’s response to PART questions in the planned FY 2006
review. For instance, the recommendation to ”Establish a baseline
for decommissioning costs for specific sites and explore the
feasibility of a method to measure efficiency and cost effectiveness”
was intended to improve the Agency’s readiness to receive a
positive answer on the following two PART questions:

¾ PART question 3.4, ”Does the program have procedures (e.g.,
  competitive sourcing/cost comparisons, IT improvements,
  appropriate incentives) to measure and achieve efficiencies and
  cost effectiveness in program execution?”
¾ PART question 4.3, ”Does the program demonstrate improved
  efficiencies or cost effectiveness in achieving program goals
  each year?”

To receive a ”yes” answer on the PART question 3.4, OMB
guidance focuses on whether the program has regular procedures
in place to measure and achieve efficiencies and cost
effectiveness. PART question 4.3, requires that the program
demonstrate [emphasis added] improved efficiencies or cost
effectiveness over the prior year. While plans exist to develop the
mechanism to establish baseline decommissioning costs, the
Program may not have time to compare the current years’
decommissioning costs against the prior years’ costs. Therefore,
the program may not be able to demonstrate improved efficiencies
and staff may be required to answer “no” to these two PART
questions.

Summary

While most recommendations made in the Program Evaluation of
Changes to the Decommissioning Program to improve performance
and to prepare to score well on an upcoming PART review were
implemented, competing priorities have interfered with progress on
a few recommendations. Full implementation of all
recommendations is needed to achieve all intended program
improvements and to avoid potential negative affects on the
Program’s PART score. According to NRC management, the
Program expects to meet the current September 2005 milestones
for these three recommendations.

                          16
                                   Audit of NRC’s Decommissioning Program



RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

2.    Bring closure to the following outstanding Program
      Evaluation recommendation—
      “Establish a baseline for decommissioning costs for specific
      sites and explore the feasibility of a method to measure
      efficiency and cost effectiveness.”

3.    Bring closure to the following outstanding Program
      Evaluation recommendation—
      “Coordinate and review information from Headquarters and
      Regions for existing decommissioning sites to monitor
      progress, consistency, and efficiency of resolving common
      policy and technical issues.”

4.    Bring closure to the following outstanding Program
      Evaluation recommendation—
      “Coordinate and review information with currently operating
      licensed sites to identify and resolve conditions or events
      that could complicate future decommissioning.”




                         17
                         Audit of NRC’s Decommissioning Program




[Page intentionally left blank.]




              18
                                           Audit of NRC’s Decommissioning Program



IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1.    Clarify and disseminate expectations for generating and
              maintaining supporting documentation for performance data
              to staff responsible for preparing and collecting performance
              data.

        2.    Bring closure to the following outstanding Program
              Evaluation recommendation—
              “Establish a baseline for decommissioning costs for specific
              sites and explore the feasibility of a method to measure
              efficiency and cost effectiveness.”

        3.    Bring closure to the following outstanding Program
              Evaluation recommendation—
              “Coordinate and review information from Headquarters and
              Regions for existing decommissioning sites to monitor
              progress, consistency, and efficiency of resolving common
              policy and technical issues.”

        4.    Bring closure to the following outstanding Program
              Evaluation recommendation—
              “Coordinate and review information with currently operating
              licensed sites to identify and resolve conditions or events
              that could complicate future decommissioning.”




                                 19
                         Audit of NRC’s Decommissioning Program




[Page intentionally left blank.]




              20
                                          Audit of NRC’s Decommissioning Program



V. AGENCY COMMENTS

       At an exit conference on August 3, 2005, the Executive Director for
       Operations agreed with OIG’s recommendations and subsequently
       provided informal comments concerning the draft report. On
       September 13, 2005, the Executive Director transmitted a
       memorandum with formal comments on this report (see
       Appendix F). Appendix G contains OIG’s specific responses to the
       comments.




                                 21
                         Audit of NRC’s Decommissioning Program




[Page intentionally left blank.]




              22
                                             Audit of NRC’s Decommissioning Program


                                                                       Appendix A
SCOPE AND METHODOLOGY

       The objective of the audit was to –

       Determine whether NRC's decommissioning program achieves
       desired performance and results as stated in the Agency's Strategic
       Plan. That is –

       1).   Determine whether the program achieves the performance
             results; and

       2).   Determine whether NRC’s decommissioning program
             implemented recommendations made in the Program
             Evaluation of Changes to NRC’s Decommissioning Program
             to improve program performance.

       This audit did not review NRC’s decommissioning fund program
       which is the subject of a separate ongoing OIG audit.

       To accomplish the objective of this audit, OIG reviewed Federal
       legislation, regulations and guidance to determine the requirements
       for –

       ¾ establishing performance expectations,
       ¾ monitoring and assessing programs’ performance, and
       ¾ assuring reliable performance data.

       OIG reviewed and attempted to verify and validate the
       decommissioning program’s NRC-reported performance results for
       FYs 2001, 2002 and 2004. OIG also analyzed the status of
       recommendations made in the September 29, 2003, Program
       Evaluation of Changes to the Decommissioning Program. OIG met
       with staff in the Office of Nuclear Material Safety and Safeguards
       and the Office of the Chief Financial Officer to gain an
       understanding of the process and controls in place for collecting
       and reporting on the decommissioning program’s performance and
       applying the OMB Program Assessment Rating Tool to NRC
       programs.




                                 23
                                   Audit of NRC’s Decommissioning Program



This audit was conducted in accordance with generally accepted
Government audit standards and included a review of management
controls related to the objective of this audit. This audit was
conducted from December 2004 to May 2005.

Major contributors to this report are Anthony Lipuma, Team Leader,
Nuclear Safety Audits, Sherri Miotla, Audit Manager, Deb Lipkey,
Sr. Management Analyst, and Andrew Blanco, Engineer.




                         24
                                             Audit of NRC’s Decommissioning Program


                                                                       Appendix B
PART STRUCTURE

     PART is a diagnostic tool designed to systematically and consistently
     assess the performance of program activities across the Federal
     government. It is comprised of a series of questions, divided into four
     sections. Each section and its associated objective are summarized
     below.

        Program Purpose & Design - Assess whether the program's
         purpose and design are clear and sound.

        Strategic Planning - Assess whether the program has valid long-
         term and annual measures and targets.

        Program Management - Rates agency management, including
         financial oversight and program improvement efforts.

        Program Results/Accountability - Rates program performance on
         measures and targets reviewed in the strategic planning section
         and through other evaluations.




                                   25
                         Audit of NRC’s Decommissioning Program




[Page intentionally left blank.]




              26
                                                            Audit of NRC’s Decommissioning Program


                                                                                        Appendix C


SAMPLE VERIFICATION AND VALIDATION FORM

       1. Office: Nuclear Material Safety and Safeguards
       Arena: Nuclear Waste Safety
        2. Performance Goal: Maintain safety, protection of the
        environment, and the common defense and security.
        3. Performance Measure: No instances where radioactive
        waste and materials under the NRC’s regulatory
        jurisdiction cannot be handled, transported, stored, or
        disposed of safely now or in the future.

                             SES Manager:


                                                                          Performance
                                                                   4. Target     5. Actual
                                                                   FY 2001: 0    FY 2001: 0
                                                                   FY 2000: 0    FY 2000: 0
                                                                   FY 1999: 0    FY 1999: 0
                                                                   FY 1998: 0    FY 1998: 0
                                                                   FY 1997: 0    FY 1997: 0
  6. Report Prepared By:
  7. Check where appropriate:
             ( ) Discontinued Goal
             ( ) Preliminary Data              (X )    Actual
             data
             ( ) Incomplete data (attach a written explanation)
             ( X ) Data can be relied on by agency managers
             and other decision-makers (attach a written
             explanation)
             ( ) Steps are being taken to improve the quality of
             the data (attach a written explanation)
             ( ) The target value is planned to be changed
             (attach a written explanation)
             ( ) Unmet Goal (attach a written explanation)
  Additional comments:




                                               27
                         Audit of NRC’s Decommissioning Program




[Page intentionally left blank.]




              28
                                           Audit of NRC’s Decommissioning Program


                                                                     Appendix D


LABELS ASSIGNED TO INDICATE STATUS OF EACH
PROGRAM EVALUATION RECOMMENDATION

      OIG reviewed each of the twenty-one recommendations to
      determine their status. Each recommendation was assigned one of
      five labels indicating the status of the recommendation. The five
      labels assigned were:

      1)   Completed,
      2)   Addressed,
      3)   In Progress,
      4)   Acknowledged, and
      5)   Not applicable.

      1. Complete

      A recommendation is assigned the label of “complete” if it has been
      resolved and no further work needs to be done to implement that
      recommendation.

      2. Addressed

      A recommendation is assigned the label of “addressed” if the focus
      of the recommendation has been resolved, but the
      recommendation requires repeated iterations of an action to be
      complete. (e.g., “Revise annual budget output measures and
      targets to be outcomes that are representative of expected key
      accomplishments for the year, including improvements.”)

      3. In Progress

      A recommendation is assigned the label of “in progress” if work on
      the recommendation has begun, but that work is currently
      incomplete. For instance, the decommissioning has completed
      some, but not all, of the items cited in one recommendation that
      includes developing case histories and lessons learned as
      examples of flexibility, risk informed approaches, realistic dose
      modeling, and prioritization of sites/activities using risk. However,
      the Program is in the process of developing the others.

      4. Acknowledged

      A recommendation is assigned the label of “acknowledged” if
      implementation is scheduled for work in the future (i.e., they have a
      work plan), but only minimal progress made.

                                 29
                                    Audit of NRC’s Decommissioning Program



5. Not Applicable

A recommendation was assigned the label of “not applicable”
because it did not fall under one of the other four labels and was
not due to begin until FY 2006 (i.e., ”Reevaluate the program and
LTR in FY 2006 to support the scheduled OMB PART for the
Decommissioning Program”).




                          30
                                                                  Audit of NRC’s Decommissioning Program


                                                                                                 Appendix E


Summary of Status of Program Evaluation Recommendations

     Recommendation
         Number                                  Recommendation                                Status
     1                   Establish a Comprehensive Decommissioning Program
                         Perspective
     1.a                 Redefine the objectives and scope of the Decommissioning          Complete
                         Program for all decommissioning sites and subsume the
                         SDMP sites.
     1.b                 Redefine the roles of organizations involved with the             In Progress
                         Comprehensive Decommissioning Program. No longer
                         require Commission approval role for removing sites from
                                        15
                         the SDMP.
     1.c                 Consider centralizing the Decommissioning Program project         Addressed
                         management and review for complex materials sites.
     1.d                 Define and manage all decommissioning sites using a               In Progress
                         graded approach to prioritize, allocate, and track both
                         licensing and inspection activities and resources in both
                         Headquarters and all the Regions. The graded approach
                         could be based on site-specific risk insights and
                         decommissioning challenges.
     2                   Implement the new Consolidated Decommissioning
                         Guidance tailored to staff and licensee needs. Emphasize
                         key topics such as using flexibility, risk informed
                         approaches, and realistic dose modeling.
     2.a                 Develop case histories and lessons learned as examples of         In Progress
                         flexibility, risk informed approaches, realistic dose modeling,
                         and prioritization of sites/activities using risk.
     2.b                 Train staff in DWM, Regions, other divisions on the               In Progress
                         Consolidated Guidance and key topics tailored to their
                         decommissioning roles, sites, and decommissioning phase.
                         Share lessons learned and case studies for implementing
                         the guidance at specific sites, especially for issues cross
                         cutting many sites.
     2.c                 Conduct frequent and in-depth consultations with individual       Addressed
                         licensees to implement guidance and share lessons
                         learned/case studies tailored to specific sites.
     2.d                 Establish a Decommissioning Lessons Learned Page on the           In Progress
                         Decommission Web site to share among all licensees site-
                         specific lessons learned; issues, and example case studies.
     3                   Improve staff availability and efficient utilization.
     3.a                 Reorganize/reassign/add staff so that the Decommissioning         In Progress
                         Program and specific sites have sufficient resources,
                         especially for critical disciplines (e.g., health physics, dose
                         modeling, and hydrogeology).
     3.b                 Improve the resource tracking process and system to               In Progress
                         allocate budgeted resources and then track actual staff
                         resource expenditures for individual sites/projects. Use the
                         new process to support management decisions to reallocate
                         resource loading to respond to emerging issues, changing
                         licensee schedules, and approved unbudgeted work.
     3.c                 Establish a baseline for decommissioning costs for specific       Acknowledged
                         sites and explore the feasibility of a method to measure

15
   Site Decommissioning Management Plan sites are those that have unusual or complex cleanup
challenges, such as a great deal of contamination, potential or actual groundwater contamination, or
contaminated, unused buildings. Removal of a site from the SDMP list signifies it successful remediation.
The SDMP designation was eliminated in FY 2004 and those sites formerly designated as SDMP have been
incorporated into the “complex site” designation.
                                                    31
                                              Audit of NRC’s Decommissioning Program



      efficiency and cost effectiveness.
4     Expand management reviews of all decommissioning sites
      among all NRC organizations involved with existing and
      future decommissioning.
4.a   Coordinate and review information from Headquarters and          Acknowledged
      Regions for existing decommissioning sites to monitor
      progress, consistency, and efficiency of resolving common
      policy and technical issues.
4.b   Coordinate and review information with currently operating       Acknowledged
      licensed sites to identify and resolve conditions or events
      that could complicate future decommissioning.
5     Compare and evaluate NRC’s Decommissioning Program to
      similar programs.
5.a   Share decommissioning lessons learned among NRC and              In Progress
      Agreement States.
5.b   Consider options and feasibility for an independent review of    Addressed
      NRC’s Decommissioning Program (e.g., American Society
      of Mechanical Engineers, Agreement States, others).
6     Revise annual Budget output measures and targets, to be          Addressed
      outcomes that are representative of expected key
      accomplishments for the year, including improvements.
7     Consider using incentives to facilitate licensee                 In Progress
      decommissioning, where appropriate. Evaluate options for
      potential incentives such as staff dose modeling for
      licensees or assigning special high priority for staff reviews
      under conditions such as bankruptcy.
8     Document and implement a “continual improvement” plan
      that systematically and periodically reevaluates and adjusts
      the program.
8.a   Plan and budget the recommended new Program Evaluation           Addressed
      improvements using the Agency’s PBPM process during the
      next budget cycle and determine which recommendations to
      implement and the appropriate schedule;
8.b   Implement the new Program Evaluation improvements and            In Progress
      Commission-directed LTR Analysis improvements during FY
      2004-2005.
8.c   Reevaluate the program and LTR in FY 2006 to support the         Not Applicable
      scheduled OMB PART for the Decommissioning Program.
8.d   Plan future reevaluations.                                       In Progress




                                 32
                              Audit of NRC’s Decommissioning Program


                                                         Appendix F
AGENCY FORMAL COMMENTS




                         33
     Audit of NRC’s Decommissioning Program




34
     Audit of NRC’s Decommissioning Program




35
     Audit of NRC’s Decommissioning Program




36
     Audit of NRC’s Decommissioning Program




37
                         Audit of NRC’s Decommissioning Program




[Page intentionally left blank.]




              38
                                                  Audit of NRC’s Decommissioning Program


                                                                            Appendix G
DETAILED ANALYSIS OF COMMENTS

             At an exit conference on August 3, 2005, the Executive Director for
             Operations agreed with OIG’s recommendations and subsequently
             provided informal comments concerning the draft report. On
             September 13, 2005, the Executive Director transmitted a
             memorandum with formal comments on this report (see Appendix
             F).

             Below is OIG’s analysis of the agency’s formal comments.

             NRC Comment 1

            The agency believes that OIG’s statement, performance results
            “cannot be verified,” is misleading because—
          ¾ the staff used the process committed to, and described in, the
            Performance and Accountability Report (PAR), and
          ¾ the information does, in fact, exist in the NMED database or other
            sources.

OIG Response
While the agency follows the process described in the PAR, no audit trail exists
to trace reported results. OIG attempted to trace reported performance results,
but the agency was unable to provide reports that supported the performance
statistics. NRC relies on verification and validation forms submitted by managers
attesting to the reliability of performance results. OIG reviewed verification and
validation forms completed in accordance with the cited process and determined
that the forms neither provided nor referenced source documents or data to
support the reported results.

The report remains unchanged.

             NRC Comment 2

             Comment 2 states, “. . . that the OIG report conclusions do not
             accurately characterize the NMSS assessment findings and should
             be revised.” The agency notes that the report [NMSS Internal
             Assessment of Performance Measures] did not state that it was
             necessary to retain such [NMED] reports so that adequate
             supporting documentation would be available.




                                        39
                                                             Audit of NRC’s Decommissioning Program




OIG Response
OIG disagrees with the agency’s assertion. OIG did not characterize the NMSS
report as stating that it was necessary to retain such reports so that adequate
supporting documentation would be available. Nonetheless, OIG modified the
report to reflect that the NMSS recommendation was made to “strengthen” the
office’s performance measure process and to reflect the following additional
statement from the NMSS Internal Assessment of Performance Measures,

        “While NMSS appears to be in compliance with the OMB standards [OMB
        Circular A-11], recommendations 1 and 2 are relevant to the issue of data
        completeness and reliability. Those recommendations highlight the
        importance of ensuring clear, consistent, and up-to-date procedures and
        records for data collection and reporting as a means for maintaining
        confidence that data is complete and reliable.”16

Report modified as described above

        NRC Comment 3

        Comment 3 states—
        “The draft report states that NMSS management and the staff member
        responsible for collecting and compiling performance results expect
        individual programs to maintain supporting documentation. The report
        should reflect that this requirement is not contained in any NRC or NMSS
        Office directive that could be identified by the decommissioning staff.”

OIG Response
The report already reflects that the staff were not aware of any requirements to
maintain supporting document for performance results (p. 9) and makes a
recommendation to the Executive Director for Operations to “Clarify and
disseminate expectations for generating and maintaining supporting
documentation for performance data to staff responsible for preparing and
collecting performance data.”

The report remains unchanged.




16
  Recommendation 1 of the NMSS assessment states, “Staff members should retain hard copies of the
NMED reports used to identify the numbers of reportable performance measure events provided to OCFO
and keep the records on file.”


                                                 40
